                   U.S. Department of Agriculture

                       Office of Inspector General
                                  Northeast Region




        Audit Report

Trade Adjustment Assistance for
       Farmers Program




                         Report No. 50601-3-Hy
                                     June 2007
                            UNITED STATES DEPARTMENT OF AGRICULTURE
                                                    OFFICE OF INSPECTOR GENERAL

                                                           Washington, D.C. 20250


June 13, 2007

REPLY TO
ATTN OF:               50601-3-Hy

TO:                    Michael W. Yost
                       Administrator
                       Foreign Agricultural Service

ATTN:                  Steven S. Rhodes
                       Director
                       Compliance, Security, and Emergency Planning Division

FROM:                  Robert W. Young /s/
                       Assistant Inspector General
                         for Audit

SUBJECT:               Trade Adjustment Assistance for Farmers Program


This memorandum report presents the results of the subject audit. Our primary objective
was to evaluate whether the Foreign Agricultural Service (FAS) effectively implemented
the Trade Adjustment Assistance (TAA) for Farmers Program. FAS paid cash benefits of
$27.7 million to 8,324 producers 1 of 11 commodities from fiscal year (FY) 2004 to 2006.
The Cooperative State Research, Education, and Extension Service (CSREES) provided
technical assistance training to about 13,000 producers. According to agency officials,
the difference in the number of producers who received cash benefits versus the number
of producers who received technical assistance is due to the net farm income test and the
low payment rates based on a cash payment formula. The cash payment formula was
developed to pay producers for only a small amount of income lost as a result of import
competition. We concluded that FAS, in conjunction with the Farm Service Agency
(FSA), CSREES, and the Economic Research Service (ERS), 2 implemented TAA for
Farmers Program in accordance with the authorizing legislation put forth in the Trade Act
of 2002 (the Trade Act). In addition, FAS implemented effective controls to ensure that
program eligibility requirements were met. Accordingly, we are not making any
recommendations at this time.


1
    Producer means a person who is either an owner, operator, landlord, tenant, or sharecropper, who shares in the risk of producing a
    crop and who is entitled to share in the crop available for marketing from the farm, or a qualified fisherman.
2
    ERS is not one of the primary agencies to implement TAA for Farmers Program, but it provided support to FAS by conducting
    market studies.
Michael W. Yost                                                                                                          2

The goal of TAA for Farmers Program is to help producers respond proactively to import
competition by providing training, cash benefits, and employment services. 3 Under TAA
for Farmers Program, the Department of Agriculture (USDA) provides technical
assistance and cash benefits to eligible farmers and fishermen if increased imports
‘contributed importantly,’ or had a significant effect, in causing a price decline of at least
20 percent. The technical assistance under TAA for Farmers Program provides access to
a wide variety of resources to assist producers in exploring alternative crops and
marketing techniques.

Since the inception of TAA for Farmers Program, FAS has only expended a fraction of
the annual $90 million appropriation each fiscal year to cover cash benefits to producers
and expenses incurred by FAS, FSA, CSREES, and ERS for administration of TAA for
Farmers Program. Each $90 million appropriation is 1-year funds and unused funds are
returned to the U.S. Treasury. Outlays over the course of 4 years (FY 2003 through
2006) were only $46.7 million. 4

BACKGROUND:

The Trade Act of 1974, as amended by the Trade Act of 2002 (Public Law 107-210),
established TAA for Farmers Program for FYs 2003 through 2007. TAA for Farmers
Program provides technical assistance and cash benefits to eligible producers of raw
agricultural commodities when the FAS Administrator determines that increases in
imports of like or directly competitive commodities contributed importantly to a specific
decline in prices, and that the national average price in the most recent marketing year is
less than 80 percent of the average national price over the preceding 5 marketing years.
TAA for Farmers Program received an appropriation of $90 million each fiscal year from
FY 2003 through 2007 to provide technical assistance and pay out cash benefits. In
October 2002, FAS was tasked with administering TAA for Farmers Program and
requested assistance from other USDA agencies to implement it. FAS was responsible for
certifying or denying the petitions for TAA for Farmers Program. FAS also developed
and signed a series of memoranda of understanding (MOU) with the other USDA
agencies: (1) FSA, to process applications, provide outreach and customer service, and
administer cash benefits; 5 (2) CSREES, to provide technical assistance and outreach
services; and (3) ERS, to provide a market study examining the information provided by
the producer in each petition and the related market information. Partnering with these
agencies helped FAS establish a system for providing the required training and
administering cash benefits. FAS launched TAA for Farmers Program on
August 20, 2003, with the publication of the Final Rule in the Federal Register.

The eligibility requirements were included in the governing legislation, the Trade Act. In
order for producers of a specific commodity to be determined eligible to receive Federal
assistance under TAA for Farmers Program (i.e., certified), the commodity must pass two
tests: (1) the national average price in the most recent marketing year for the commodity
3
  Re-employment services are also authorized; however, these resources are funded through the U.S. Department of Labor.
4
  This included $27.7 million for cash benefits, $9.5 million for technical assistance training costs, and $9.5 million for
  administrative costs.
5
  These cash benefits are processed through the Commodity Credit Corporation.
Michael W. Yost                                                                                                                        3

produced by the group must be equal to or less than 80 percent 6 of the average of the
national average prices in the preceding five marketing years; and (2) increases of
imports of a like or directly competitive commodity must have contributed importantly to
the decline in prices. In order to remain eligible for program benefits in subsequent years
(i.e., re-certification), prices must remain at or below the same 80 percent threshold as the
initial year and imports must have continued to increase and contribute importantly to the
decline in prices. Once a petition is re-certified, producers must submit an application to
be eligible for subsequent year program benefits. In addition, the Trade Act precludes a
producer from receiving more than $10,000 in cash benefit payments per fiscal year.

FAS’ national office is responsible for certifying or denying the petitions for TAA for
Farmers Program. Prior to the petition certification process, FAS publishes a notice in
the Federal Register about a petition that has been filed, and after FAS has certified or
denied the petition, it publishes a notice in the Federal Register accordingly. ERS
conducts a market study to verify that each petition meets the two tests of eligibility and
provides the results to FAS. FAS then forwards ERS’ analysis to a Petition Review
Committee (the Committee) 7 that evaluates ERS’ conclusions and submits a
recommendation of certification or denial to the FAS Administrator. The Administrator’s
decision is final, released on FAS’ website, and published in the Federal Register.

Producers then are able to apply under the approved petition to receive Phase I Technical
Assistance training, cash benefits, and employment services. Producers are to apply for
technical assistance training within 180 days of the certified petition. The training under
TAA for Farmers Program assists producers in exploring alternative crops and marketing
techniques to help them adjust to import competition. CSREES secured the assistance of
four Regional Risk Management Education (RME) Centers and a Digital Center for RME
to carry out the technical assistance requirements as specified in the program regulations.
The MOU specifies that CSREES will ensure that eligible farmers and fishermen receive
technical assistance from an Extension Service agent. Producers must first complete the
Phase I Technical Assistance training in order to receive cash benefits.

A second phase (i.e., Phase II) of the technical assistance training is offered, but this
assistance is voluntary. Phase II Technical Assistance training is more intensive whereby
each producer meets one-on-one with a business expert to enhance the producer’s
capabilities to successfully adjust to import competition.

In December 2006, the Government Accountability Office (GAO) issued a report titled
“Trade Adjustment Assistance: New Program for Farmers Provides Some Assistance, but
Has Had Limited Participation and Low Program Expenditures” (GAO-07-201). This
report provided a summary of TAA for Farmers Program. GAO stated that producers
were generally satisfied with the technical assistance and thought applying for the cash

6
    S. 122 and H.R. 910, dated, January 4, and February 8, 2007, respectively, proposed amendments to the Trade Act of 1974
    pertinent to TAA for Farmers Program including striking “80 percent” and inserting “90 percent” effective for all petitions certified
    on or after January 1, 2007.
7
    Petition Review Committee Members: Assistant Deputy Administrator, FAS; Staff Economist, Office of the Chief Economist;
    Assistant to the Deputy Administrator for Farm Programs, FSA; and Senior Economist, Economic Analysis and Program Planning
    Branch, Agricultural Marketing Service.
Michael W. Yost                                                                                                                        4

payment was worthwhile. GAO further stated that, while the cash benefits and technical
assistance appear to assist farmers and fishermen in adjusting to the effects of import
competition on a limited, short-term basis, the cash payments are relatively low and must
be approved each year. GAO noted that TAA for Farmers Program eligibility
requirements are difficult for many farmers and fishermen to meet and that the low cash
payments may discourage others from applying. As a result, the spending for TAA for
Farmers Program was well below the amount provided for in the Trade Act. GAO
concluded that this was a new program and, therefore, could make only a limited
assessment of how this program is working. GAO did not make any recommendations in
this report.

OBJECTIVE:

Our primary objective was to evaluate whether FAS effectively implemented TAA for
Farmers Program. As part of this, we assessed the levels of coordination and cooperation
between FAS, FSA, and CSREES in implementing TAA for Farmers Program.

SCOPE AND METHODOLOGY:

We reviewed the roles and responsibilities of FAS, FSA, CSREES and ERS. 8 We
reviewed the policies and procedures developed by FAS to ensure they were in concert
with the authorizing legislation.

From FY 2004 through 2006, FAS approved 30 and denied 34 petitions. We tested FAS’
eligibility requirements set forth in its policies and procedures and implemented at the
national office level. This was done through judgmentally selecting and reviewing 18 9 of
the 30 certified petitions, since the inception of the program in 2003, including
supporting documentation (i.e., petition justification statements, ERS’ market studies, the
Committee’s recommendation memorandums, and FAS’ certification memorandums).
We reviewed 6 of the 12 petitions certified in FY 2004 and all of the certified petitions in
FYs 2005 and 2006, 5 and 4, respectively. We also selected 3 of the 9 re-certified
petitions for review in FY 2005. We sampled 100 percent of the petitions in FYs 2005
and 2006 because we needed to review an adequate number of petitions to ensure FAS
consistently implemented the petition review process based on ERS’ market study results.
We also reviewed the reasons petitions were denied.

We reviewed the MOUs between FAS and both FSA and CSREES, and the policies and
procedures each developed to fulfill their roles and responsibilities. We did not review
the individual payment and training records because they were maintained at the State
and local offices. We did not perform additional fieldwork at these offices due to low
participation in this program. 10



8
     ERS was not instrumental in the conduct of this Program. ERS’ market studies were used by FAS to fulfill their role as the lead
     agency in implementing TAA for Farmers Program.
9
     This included 15 new and 3 re-certified petitions.
10
     Our decision to not perform this fieldwork was based on the low number of applications and amount of cash outlay.
Michael W. Yost                                                                      5

We conducted our fieldwork at FAS, FSA, and CSREES’ national offices in Washington,
D.C., from April 2006 to December 2006.

We also reviewed the GAO report, “Trade Adjustment Assistance, New Program for
Farmers Provides Some Assistance, but Has Had Limited Participation and Low Program
Expenditures,” dated December 2006 (GAO-07-201).

We conducted our audit in accordance with the 2003 revision of the Government
Auditing Standards issued by the Comptroller General of the United States.

AUDIT RESULTS:

We noted participation in TAA for Farmers Program was lower than anticipated. FSA
provided cash benefits to only 8,324 producers from FY 2004 through 2006. TAA for
Farmers Program participation had been estimated to exceed 11,000 producers in
FY 2004 and was expected to increase in the subsequent years.

Based on our review of petitions since the inception of the program, we concluded that
FAS effectively implemented TAA for Farmers Program in accordance with the Trade
Act, Federal Register final rule, and FAS guidance. Our analysis disclosed that strong
controls over petition eligibility were designed and implemented. Therefore, we are not
making any recommendations at this time.

Thank you for coordinating the receipt of comments from the other agencies involved.
We have incorporated the technical comments received. We appreciate the courtesies and
cooperation extended to us by your staff.
